Office of Audits and Evaluations
Report No. AUD-12-013


Material Loss Review of The First State
Bank, Stockbridge, Georgia




                                   September 2012
                                     Executive Summary

                                     Material Loss Review of The First State Bank,
                                     Stockbridge, Georgia
                                                                                     Report No. AUD-12-013
                                                                                            September 2012

Why We Did The Audit
Section 38(k) of the Federal Deposit Insurance Act (FDI Act), as amended by the Dodd-Frank Wall Street
Reform and Consumer Protection Act (the Financial Reform Act), provides, in general, that if the Deposit
Insurance Fund (DIF) incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency, reviewing the
agency’s supervision of the institution. Section 38(k) establishes a material loss review (MLR) threshold
of $150 million for losses that occur for the period January 1, 2012 through December 31, 2013. The FDI
Act requires that the report be completed within 6 months after it becomes apparent that a material loss
has been incurred.

On January 20, 2012, the Georgia Department of Banking and Finance (GDBF) closed The First State
Bank (FSB) and the FDIC was appointed receiver. On March 13, 2012, the FDIC notified the Office of
Inspector General (OIG) that FSB’s total assets at closing were $528.7 million and that the estimated loss
to the DIF was $216.2 million. The FDIC OIG engaged BDO USA, LLP (BDO) to conduct an MLR of
FSB. The performance audit objectives were to (1) determine the causes of FSB’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of FSB, including the FDIC’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38.


Background
Established on October 8, 1964, FSB was a commercial bank based in Stockbridge, Georgia, which is
located about 20 miles south of Atlanta. The institution maintained seven branches in its primary market
area of Henry County, Georgia, and the surrounding counties in the Atlanta metropolitan area. The bank
was wholly owned by a one-bank holding company, the Henry County Bancshares, Inc., Stockbridge,
Georgia. FSB’s lending strategy focused primarily on commercial real estate (CRE), particularly
residential acquisition, development, and construction (ADC) projects.


Audit Results
Causes of Failure and Material Loss

FSB failed primarily because its Board of Directors (Board) and management did not effectively manage
the risks associated with the bank’s heavy concentrations in CRE and ADC loans. Among other things,
the Board and management did not establish prudent ADC loan concentration limits or maintain capital at
levels that were commensurate with the risk in the bank’s loan portfolio. Lax lending practices also
contributed to the asset quality problems that developed when economic conditions in FSB’s lending
markets deteriorated. Specifically, the bank exhibited weak ADC loan underwriting, credit
administration, and related monitoring practices. In addition, FSB’s management was slow to recognize
the deterioration in its loan portfolio and was unable to successfully address the depth and breadth of the
bank’s financial problems.

FSB’s significant exposure to ADC loans, coupled with weak risk management practices, made the bank
vulnerable to a sustained downturn in the Georgia real estate market. In late 2007, conditions in FSB’s
primary lending areas began to deteriorate, resulting in a decline in the quality of the loan portfolio.
Much of this decline was centered in ADC loans. FSB’s financial condition continued to deteriorate
between 2008 and 2011. The associated provisions for loan losses depleted FSB’s earnings, eroded its


                                To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Material Loss Review of The First State Bank,
                                     Stockbridge, Georgia
                                                                                     Report No. AUD-12-013
                                                                                            September 2012

capital, and strained its liquidity. The GDBF closed FSB on January 20, 2012 due to the institution’s
inability to raise sufficient capital to support safe and sound banking operations.

The FDIC’s Supervision of FSB

The FDIC, in coordination with the GDBF, provided ongoing supervisory oversight of FSB through
onsite risk management examinations, visitations, and offsite monitoring activities. Through its
supervisory efforts, the FDIC identified key risks in FSB’s operations and brought these risks to the
attention of the institution’s Board and management. Such risks included the bank’s significant
concentrations in CRE and ADC loans and weak loan underwriting, credit administration, and related
monitoring practices. The FDIC and GDBF also made numerous recommendations for improvement and
implemented enforcement actions in the form of a Memorandum of Understanding, Consent Order, and
Supervisory PCA Directive.

Like other institutions that failed in recent years, FSB developed a significant exposure to ADC loans at a
time when the bank’s financial condition and lending markets were favorable. This exposure made the
bank vulnerable to a sustained downturn in the real estate market. Such an exposure would have been
subject to a more critical risk assessment under the FDIC’s current approach to supervision, which
involves greater emphasis on risk management practices for institutions with elevated risk profiles, such
as FSB, and a stronger supervisory response—including accelerated examinations or visitations, lower
ratings, and/or supervisory actions—when risks are not being properly managed. However, it is uncertain
whether an alternative supervisory approach and response would have been effective in limiting FSB’s
financial deterioration or the loss to the DIF. Examiners became sharply critical of FSB’s risk
management practices beginning with the FDIC’s November 2007 examination and issued supervisory
enforcement actions in 2009 and 2010, respectively. By that time, the bank’s lending markets were
rapidly deteriorating, making remedial efforts difficult.

The FDIC has taken a number of actions to enhance its supervision program based on the lessons learned
from failures during the financial crisis. Such actions include instituting a training initiative for
examiners that emphasizes risk management practices for institutions with high-risk profiles and issuing
additional supervisory guidance on CRE and ADC concentrations.

With respect to PCA, the FDIC implemented supervisory actions that were consistent with relevant
provisions of section 38.

Management Response

Subsequent to the issuance of BDO’s draft report, officials in the FDIC’s Division of Risk Management
Supervision (RMS) provided additional information for BDO’s consideration, and BDO revised its report
to reflect this information, as appropriate. On September 10, 2012, the Director, RMS, provided a written
response to a draft of this report. In the response, the Director reiterated the causes of failure and
supervisory activities described in the report. Further, the response stated that RMS recognized the threat
that institutions with high-risk profiles, such as FSB, pose to the DIF and issued to FDIC-supervised
institutions a 2008 Financial Institution Letter (FIL), entitled, Managing Commercial Real Estate
Concentrations in a Challenging Environment. The FIL re-emphasized the importance of robust credit
risk management practices for institutions with concentrated CRE exposures and set forth broad
supervisory expectations.


                                 To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                               Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General


DATE:                                     September 13, 2012

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Risk Management Supervision


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Deputy Inspector General for Audits and Evaluations

SUBJECT:                                  Material Loss Review of The First State Bank,
                                          Stockbridge, Georgia (Report No. AUD-12-013)


The subject final report is provided for your information and use. The report does not contain
recommendations, thus a response was not required. However, the Division of Risk
Management Supervision provided a written response on September 10, 2012. We
incorporated the response into Part II of the final report.

If you have questions concerning this report, please contact me at (703) 562-6352 or Mark
Mulholland, Assistant Inspector General for Audits, at (703) 562-6316. We appreciate the
courtesies extended to the Office of Inspector General and contractor staff.

Attachment
                            Table of Contents

Part I

   Report by BDO USA, LLP                                     I-1
   Material Loss Review, The First State Bank, Stockbridge,
   Georgia

Part II

   Corporation Comments and OIG Evaluation                    II-1

   Corporation Comments                                       II-2
        Part I

Report by BDO USA, LLP
Audit Report
Material Loss Review
The First State Bank, Stockbridge, Georgia
September 12, 2012
                                                                          Tel: 301-654-4900                           7101 Wisconsin Ave, Suite 800
                                                                          Fax: 301-654-3567                           Bethesda, MD 20814
                                                                          www.bdo.com




September 12, 2012

Stephen M. Beard
Deputy Inspector General for Audits and Evaluations
Federal Deposit Insurance Corporation
3501 Fairfax Drive
Arlington, VA 22226

Re:          Transmittal of Results of the Material Loss Review Report of The First State
             Bank, Stockbridge, Georgia

Dear Mr. Beard:

This letter submits our final report representing the Material Loss Review of The First State
Bank, Stockbridge, Georgia, in accordance with Contract Number CORHQ-09-G-0341,
dated December 4, 2009. The audit objectives were to (1) determine the causes of The First
State Bank’s failure and resulting material loss to the Deposit Insurance Fund and
(2) evaluate the FDIC’s supervision of The First State Bank, including the FDIC’s
implementation of the Prompt Corrective Action provisions of section 38 of the Federal
Deposit Insurance Act. As part of our work, we (1) interviewed key examination and
supervisory personnel at the FDIC and the Georgia Department of Banking and Finance,
and (2) reviewed examination and supervisory records, including supporting examination
workpapers.

We conducted our performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.

The information included in this report was obtained during our fieldwork, which occurred
during the period March 2012 through August 2012.

Please contact Thomas Cooper at 301-654-4900 if you have any questions or comments
regarding this report.

Very truly yours,




BDO USA, LLP, a Delaware limited liability partnership, is the U.S. member of BDO International Limited, a UK company limited by guarantee, and forms part of
the international BDO network of independent member firms.

BDO is the brand name for the BDO network and for each of the BDO Member Firms.
                                    Table of Contents

Why We Did the Audit                                                                     I-1

Background                                                                               I-1

Causes of Failure and Material Loss                                                      I-3
  Concentrations in ADC Loans                                                            I-4
  Capital Levels                                                                         I-6
  Lending Practices                                                                      I-7

The FDIC’s Supervision of The First State Bank                                          I-10
  Supervisory History                                                                   I-11
  Supervisory Response to Key Risks                                                     I-14
  Supervisory Lessons Learned                                                           I-19
  Implementation of PCA                                                                 I-20

Appendices
  1. FSB’s Risk Management Weaknesses and Apparent Violations and
     Contraventions by Examination and Visitation, 2005-2011                            I-23
  2. Objectives, Scope, and Methodology                                                 I-24
  3. Glossary of Terms                                                                  I-28
  4. Acronyms                                                                           I-33

Tables
   Table 1: Select Financial Information for FSB, 2005-2011                              I-3
   Table 2: FSB’s Adversely Classified Assets as a Percent of Tier 1 Capital Plus the
           ALLL by Examination and Visitation                                             I-9
   Table 3: Supervisory History of FSB, 2005-2011                                       I-11
   Table 4: FSB’s Capital Levels, 2005-2011                                             I-21

Figures
   Figure 1: FSB Loan Portfolio Composition, 2005-2011                                   I-2
   Figure 2: FSB’s ADC Concentrations as a Percent of Total Capital, 2005-2010           I-5
   Figure 3: Trend in FSB’s Total Risk-Based Capital Ratios Relative to ADC Loans,
             2005-2011                                                                    I-6
   Figure 4: FSB’s OREO vs. Peer Group, 2005-2011                                       I-10
Why We Did the Audit
Section 38(k) of the Federal Deposit Insurance Act (FDI Act), as amended by the Dodd-Frank
Wall Street Reform and Consumer Protection Act (the Financial Reform Act), provides, in
general, that if the Deposit Insurance Fund (DIF) incurs a material loss 1 with respect to an
insured depository institution, the Inspector General of the appropriate federal banking agency
shall prepare a report to that agency, reviewing the agency’s supervision of the institution.
Section 38(k) establishes a material loss review (MLR) threshold of $150 million for losses that
occur for the period January 1, 2012 through December 31, 2013. The FDI Act requires that the
report be completed within 6 months after it becomes apparent that a material loss has been
incurred.

On January 20, 2012, the Georgia Department of Banking and Finance (GDBF) closed The First
State Bank (FSB) and the Federal Deposit Insurance Corporation (FDIC) was appointed receiver.
On March 13, 2012, the FDIC notified the Office of Inspector General (OIG) that FSB’s total
assets at closing were $528.7 million and that the estimated loss to the DIF was $216.2 million.
The FDIC OIG engaged BDO USA, LLP (BDO) to conduct an MLR of FSB. The performance
audit objectives were to (1) determine the causes of FSB’s failure and the resulting material loss
to the DIF and (2) evaluate the FDIC’s supervision of FSB, including the FDIC’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38. Appendix 2,
Objectives, Scope, and Methodology, describes the procedures used to conduct this performance
audit. In addition, Appendix 3 provides a glossary of terms, and Appendix 4 contains a list of
acronyms used in this report.



Background
Established on October 8, 1964, FSB was a commercial bank based in Stockbridge, Georgia,
which is located about 20 miles south of Atlanta. The institution maintained seven branches in
its primary market area of Henry County, Georgia, and the surrounding counties in the Atlanta
metropolitan area. The bank was wholly owned by a one-bank holding company, the Henry
County Bancshares, Inc., Stockbridge, Georgia.

The state of Georgia experienced a total of 74 bank failures from the beginning of 2008 through
January 19, 2012. The large number of failures in Georgia was due in large part to depressed
real estate values, an oversupply of housing, and an elevated unemployment rate. The
deterioration in the Georgia real estate market had a particularly hard impact on banks with


1
    Certain terms that are underlined when first used in this report are defined in Appendix 3, Glossary of Terms.


                                                           I-1
significant exposure to real estate lending in the Atlanta metropolitan area. After peaking in
April 2007, home prices in Atlanta had fallen by almost 24 percent through May 2011. 2

FSB’s lending strategy focused primarily on commercial real estate (CRE), particularly
residential acquisition, development, and construction (ADC) projects, for an extended period.
Specifically, as of December 31, 2002, the bank had CRE and ADC concentration levels of
439 and 210 percent of total capital, respectively. These CRE and ADC concentrations levels
increased to 634 percent and 410 percent of total capital, respectively, as of December 31, 2006.
As illustrated in Figure 1, these concentrations also made up the vast majority of FSB’s loan
portfolio in the years preceding its failure.

Figure 1: FSB Loan Portfolio Composition, 2005-2011




Source: BDO Analysis of Consolidated Reports of Conditions and Income (Call Reports) for FSB.


Table 1 presents FSB’s financial condition as of December 31, 2011, and for the six preceding
years ended December 31.




2
 Statement of the FDIC on Potential Mixed Messages: Is Guidance from Washington Being Implemented By
Federal Bank Examiners? before the Subcommittee on Financial Institutions and Consumer Credit Committee on
Financial Services House of Representatives; Newnan, Georgia on August 16, 2011.


                                                      I-2
Table 1: Select Financial Information for FSB, 2005-2011
    Financial Measure
                               12/31/05   12/31/06   12/31/07   12/31/08   12/31/09   12/31/10   12/31/11
      ($000s) Omitted
 Total Assets                  630,873    694,157     718,831   655,717    614,406    563,746    516,760
 Total Loans                   518,114    561,646     569,388   533,608    434,891    380,242    344,134
 Total Deposits                545,957    595,827     626,068   590,566    586,043    544,707    509,065
 Brokered Deposits / Total       4%         3%          2%        8%        11%         7%         3%
 Liabilities
 Time Deposits                 300,247    361,657     406,307   389,762    402,355    358,767    312,199
 Federal Home Loan Bank          2%         3%          1%        0%         0%         0%         0%
 Advance / Total Liabilities
 Return on Average Assets       1.68%      1.84%       1.19%    (2.06%)    (5.60%)    (1.05%)    (2.06%)
 Net Interest Margin            3.90%      4.31%       3.79%     2.48%      1.08%      1.89%      2.04%
 Noncurrent Loans / Gross       0.95%      0.25%       6.57%    18.34%     23.43%     23.27%     26.47%
 Loans
 ADC Loans / Total Capital      388%       410%        394%      401%       638%       655%      1,804%
 CRE Loans / Total Capital      633%       634%        602%      678%      1,311%     1,484%     4,243%
 Tier I Leverage Capital        9.59%      9.70%       9.85%     8.39%      3.27%      2.65%      0.60%
 Ratio
 Total Risk-Based Capital      12.28%     12.59%      13.32%    11.55%      5.40%      4.35%      1.50%
 Ratio
Source: Uniform Bank Performance Reports (UBPR) for FSB.




Causes of Failure and Material Loss
FSB failed primarily because its Board of Directors (Board) and management did not effectively
manage the risks associated with the bank’s heavy concentrations in CRE and ADC loans.
Among other things, the Board and management did not establish prudent ADC loan
concentration limits or maintain capital at levels that were commensurate with the risk in the
bank’s loan portfolio. Lax lending practices also contributed to the asset quality problems that
developed when economic conditions in FSB’s lending markets deteriorated. Specifically, the
bank exhibited weak ADC loan underwriting, credit administration, and related monitoring
practices. In addition, FSB’s management was slow to recognize the deterioration in its loan
portfolio and was unable to successfully address the depth and breadth of the bank’s financial
problems.

FSB’s significant exposure to ADC loans, coupled with weak risk management practices, made
the institution vulnerable to a sustained downturn in the Georgia real estate market. In late 2007,
conditions in FSB’s primary lending areas began to deteriorate, resulting in a decline in the
quality of the bank’s loan portfolio. Much of the deterioration in the loan portfolio was centered
in ADC loans. FSB’s financial condition continued to deteriorate between 2008 and 2011. The
associated provisions for loan losses depleted FSB’s earnings, eroded its capital, and strained its
liquidity. On January 20, 2012, the GDBF closed FSB due to the institution’s inability to raise
sufficient capital to support safe and sound banking operations.


                                                     I-3
Concentrations in ADC Loans

FSB maintained a large concentration in ADC loans throughout its history. The bank increased
its ADC lending activities in response to a strong real estate market in the Atlanta metropolitan
area between 2002 and 2007. However, as described below, FSB’s Board and management did
not effectively manage the risks associated with the institution’s significant concentrations in
ADC loans.

Loan Growth. During the 6-year period ended December 31, 2007, FSB grew its loan portfolio
by 61 percent. Contributing to this growth was an increase in CRE loans (including ADC loans)
from $215 million at year-end 2002 to $496 million at year-end 2007. By December 31, 2007,
ADC loans represented 66 percent of FSB’s $496 million CRE portfolio. FSB’s ADC loans
included speculative construction 3 and land development projects in Georgia.

Concentrations in CRE/ADC Loans. In December 2006, the FDIC, the Office of the
Comptroller of the Currency, and the Board of Governors of the Federal Reserve System issued
guidance, entitled Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices (Joint Guidance). The purpose of the Joint Guidance was to reinforce existing
regulations and guidelines for real estate lending and safety and soundness. The Joint Guidance
states that the federal banking agencies have observed an increasing trend in the number of
institutions with concentrations in CRE loans and noted that rising CRE concentrations could
expose institutions to unanticipated earnings and capital volatility in the event of adverse
changes in the CRE market.

Although the Joint Guidance does not establish specific CRE lending limits, it does define
criteria that the agencies use to identify institutions potentially exposed to significant CRE
concentration risk. According to the Joint Guidance, an institution that has experienced rapid
growth in CRE lending, has notable exposure to a specific type of CRE, or is approaching or
exceeds the following supervisory criteria may be identified for further supervisory analysis of
the level and nature of its CRE concentration risk:

       •   Total CRE loans representing 300 percent or more of total capital where the outstanding
           balance of the institution’s CRE loan portfolio has increased by 50 percent or more
           during the prior 36 months; or

       •   Total loans for construction, land development, and other land (referred to in this report
           as ADC loans) representing 100 percent or more of total capital.



3
    Speculative construction lending involves the financing of projects for which a buyer has not yet been identified.


                                                           I-4
FSB’s ADC concentrations significantly exceeded the levels defined in the Joint Guidance as
possibly warranting further supervisory analysis. As reflected in the following figure, FSB’s
ADC loan concentration also significantly exceeded the bank’s peer group 4 average throughout
the life of the bank. FSB was in the ninety-sixth percentile or higher when compared to their
peer group for the period 2005 through 2010.

Figure 2: FSB’s ADC Concentrations as a Percent of Total Capital, 2005-2010




Source: BDO analysis of UBPRs for FSB.

ADC lending generally involves a greater degree of risk than permanent financing for finished
residences or commercial buildings. Associated risks include adverse changes in market
conditions between the time an ADC loan is originated and the time construction is completed,
as well as the inherent difficulty of accurately estimating the cost of construction and the value of
completed properties in future periods. The life cycle of these types of projects can vary in
length due to consumer demand, which makes financing for such projects susceptible to
increased risks during an extended economic downturn. Due to these and other risk factors,
ADC loans generally require greater effort to effectively evaluate and monitor than other types of
loans.

Although FSB had implemented certain controls for managing its ADC loan concentrations, its
concentration risk management practices were not adequate. Among other things, the
institution’s loan policy established limits by category for the acquisition and development loans
in relation to total loans. However, examiners noted in the 2007 examination report that FSB did

4
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the institution
is located in a metropolitan or non-metropolitan area. FSB’s peer group included all insured institutions with assets
between $300 million and $1 billion.


                                                         I-5
not follow the bank’s internal guidelines limiting ADC concentrations, exposing the institution to
potential adverse market conditions. In addition, GDBF examiners conveyed to management
that the institution had not conducted stress tests on its ADC loan portfolio and had not
adequately monitored the global debt or cash flows of its larger borrowers. Further, the bank did
not develop a feasible contingency funding plan to mitigate the risks associated with its ADC
loan concentration in the event of adverse market conditions until January 8, 2009.

Capital Levels

The Joint Guidance states that institutions with high levels of CRE concentrations should hold
capital exceeding regulatory minimums and commensurate with the level of risk in the CRE
lending portfolio. In addition, the FDIC’s Risk Management Manual of Examination Policies
states that institutions should maintain capital commensurate with the level and nature of risks to
which they are exposed. Further, the amount of capital necessary for safety and soundness
purposes may differ significantly from the amount needed to maintain a Well Capitalized or
Adequately Capitalized position for purposes of PCA.

Figure 3 illustrates the trend in FSB’s Total Risk-Based Capital ratios relative to the amount of
ADC loans in the bank’s loan portfolio during the years preceding the bank’s failure. The bank’s
capital ratios were about the same as its peer group average despite having ADC loan
concentrations that were significantly higher than peer. The bank’s capital levels declined
significantly during 2009, due in large part to ADC loan losses. Had FSB maintained higher
capital ratios, loan growth may have been constrained and losses to the DIF may have been
mitigated to some extent.

Figure 3: Trend in FSB’s Total Risk-Based Capital Ratios Relative to ADC Loans, 2005-
2011
                               $350                                                                    14%
                                                                                                             Total Risk-Based Capital Ratio


                               $300                                                                    12%
  Total ADC loans (Millions)




                               $250                                                                    10%
                                                                                                                      (Percentage)




                               $200                                                                    8%

                               $150                                                                    6%

                               $100                                                                    4%

                                $50                                                                    2%

                               $-                                                                      0%
                                      2005   2006   2007      2008           2009        2010   2011
                                                             Year-End


                                                       ADC    Total Risk-Based Capital

Source: BDO analysis of UBPRs for FSB.




                                                                 I-6
Lending Practices

Ineffective Board and management oversight of the lending function contributed to the asset
quality problems that developed when the economy and FSB’s local real estate market declined.
References to weak loan underwriting, credit administration, and related monitoring practices
were particularly prevalent in examination and visitation reports issued between 2007 and 2011.
Some of FSB’s risk management practices had the effect of delaying recognition of the growing
deterioration in the bank’s loan portfolio. The more salient weaknesses identified in examination
and visitation reports related to FSB’s lending practices follow. In addition, Appendix 1
describes FSB’s risk management weaknesses and apparent violations of laws and regulations
and contraventions of policy by examination and visitation for the period 2005 through 2011.

Loan Underwriting.

   •   Global Cash Flow Analyses. FDIC Financial Institution Letter (FIL)-22-2008,
       Managing Commercial Real Estate Concentrations in a Challenging Environment,
       emphasizes the importance of performing global financial analyses for obligors. Such
       analyses can provide early indications of problems and are essential in determining
       whether it is prudent to continue working with a problem borrower or pursue an exit
       strategy. FSB did not routinely perform global cash flow analyses and did not consider
       the impact of larger borrowers’ contingent liabilities.

   •   Use of Interest Reserve Accounts - Regional Directors Memorandum 2008-021,
       Supervising Institutions with Commercial Real Estate Concentrations, issued by the
       FDIC’s Division of Risk Management Supervision (RMS), describes risks associated
       with the use of interest reserve accounts. The memorandum states that if a project
       experiences delays or has diminished feasibility resulting from a weak local real estate
       market, interest reserves can inappropriately disguise a problem credit relationship from
       appearing on delinquency reports. Accordingly, the effectiveness of a bank’s control
       over interest reserve accounts and its internal reporting on the use of such reserves is
       important to institutions with ADC loan concentrations. In some instances,
       management’s use of interest reserves was not acceptable. Specifically, examiners
       identified loans where interest reserves were used to fund principal or interest payments
       to keep loans current.

   •   Legal Lending Limit - Section 7-1-285 of the Financial Institutions Code of Georgia
       imposes limitations on the amount of loans to one borrower. The Section states, in part,
       that a bank shall not directly or indirectly make loans to any one person or corporation
       which, in aggregate, exceed 15 percent of the statutory capital base of the bank, unless
       the entire amount of such loans is secured by good collateral or other ample security and



                                               I-7
       does not exceed 25 percent of the statutory capital base. FSB had certain lending
       relationships that exceeded these limitations.

   •   Real Estate Loan-to-Value Limits - Guidelines for real estate lending are set forth in
       Part 365 of the FDIC Rules and Regulations. Appendix A of Part 365 sets forth specific
       guidelines related to the maximum loan-to-value (LTV) ratios that should be maintained
       regarding various categories of real estate loans. The guidelines allow for individual
       exceptions to the LTV limits based on the support provided by other credit factors. LTV
       exceptions should be identified in the institution’s records and their aggregate amount
       reported at least quarterly to the institution’s Board. According to the guidelines, the
       aggregate amount of all loans in excess of the supervisory LTV limits should not exceed
       100 percent of total capital. Institutions receive increased supervisory scrutiny as the
       total of such loans approaches this level. FSB had several loans in its portfolio that
       collectively exceeded these regulatory guidelines.

Credit Administration and Loan Monitoring.

   •   Appraisals - Part 323, Appraisals, of the FDIC Rules and Regulations, identifies real
       estate financial transactions, including loan renewals, requiring the services of an
       appraiser. In addition, the Statement of Policy on Interagency Appraisal and Evaluation
       Guidelines provides expectations for prudent appraisal and evaluation policies,
       procedures, and practices. FSB management renewed loans after a significant change
       occurred in the bank’s real estate lending markets, but did not obtain updated evaluations
       or appraisals.

   •   Borrower Financial Information – The Risk Management Manual of Examination
       Policies discusses the importance of maintaining current loan documentation, such as
       borrower financial statements and cash flow statements. FSB did not consistently obtain
       updated financial information.

   •   Loan Review – According to the Risk Management Manual of Examination Policies, it is
       essential that all institutions have an effective loan review system. Accurate and timely
       credit grading is a primary component of an effective loan review system. Credit grading
       involves an assessment of credit quality, the identification of problem loans, and the
       assignment of risk ratings. FSB did not have an effective loan review and internal
       grading system as management failed to recognize problem credits in a timely and
       appropriate manner.

   •   Underfunded ALLL- According to the Interagency Policy Statement on the Allowance
       for Loan and Lease Losses, the Allowance for Loan and Lease Losses (ALLL) represents



                                               I-8
          one of the most significant estimates in an institution’s financial statements and
          regulatory reports. As a result, institutions are responsible for developing, maintaining,
          and documenting a comprehensive, systematic, and consistently-applied process for
          determining the ALLL. During the April 2009 examination, examiners noted the ALLL
          was underfunded by $6.0 million due to the level of adverse classifications and
          modifications made to the bank’s methodology for calculating ALLL. In the subsequent
          October 2009 visitation, examiners discovered a mathematical error with the reserve
          percentages used in the calculation of the ALLL. This error, along with the use of stale
          asset values used for impairment testing, resulted in the need to increase the ALLL by
          approximately $10 million. Examiners also noted underfunding of the ALLL of $2.1 and
          $8.9 million in the June 2010 and February 2011 examinations, respectively. The cause
          of the underfunding was additional loan losses and downgrades of several loan
          relationships identified during the examinations.

Adversely Classified Assets. 5 FSB’s adversely classified assets increased from 65 percent of
Tier 1 Capital plus the ALLL as of the November 2007 examination, to 1,077 percent of Tier 1
Capital plus the ALLL as of the August 2011 examination. At the time of the August 2011
examination, the bank’s adversely classified assets totaled $232 million. Approximately
$153 million of this amount consisted of loans, the majority of which were ADC loans, and
almost $77 million was other real estate owned (OREO). Table 2 summarizes the increase in
FSB’s adversely classified assets as a percentage of Tier 1 Capital plus the ALLL during
examinations and visitations conducted between 2006 and 2011.

Table 2: FSB’s Adversely Classified Assets as a Percent of Tier 1 Capital Plus the ALLL
by Examination and Visitation
                                                                                     Adversely Classified Assets
                                       Exam/Visitation           Composite
    Examination/Visitation Date                                           6          as a percent of Tier 1 Capital
                                         as of Date               Ratings
                                                                                            plus the ALLL
          August 14, 2006               June 30, 2006                  1                          3.70%
         November 13, 2007            September 30, 2007               3                         65.13%
           April 30, 2009               March 31, 2009                 5                        250.04%
         October 26, 2009V            September 30, 2009               5                        330.89%
           June 28, 2010                March 31, 2010                 5                        562.76%
         February 14, 2011V           December 31, 2010                5                        802.00%
           August 8, 2011               June 30, 2011                  5                       1,077.66%
V – Denotes Visitation
Source: BDO analysis of Reports of Examination and Visitation for FSB.


5
  Assets subject to criticism and/or comment in an examination report. Adversely classified assets are allocated on
the basis of risk (lowest to highest) into three categories: Substandard, Doubtful, and Loss.
6
  Composite ratings are developed using the Uniform Financial Institutions Rating System (UFIRS), which is an
internal rating system used by the federal and state regulators for assessing the soundness of financial institutions.
Each financial institution is assigned a composite rating based on an evaluation and rating of six essential
components of an institution's financial condition and operations. The six component areas are Capital adequacy,
Asset quality, Management, Earnings, Liquidity, and Sensitivity to market risk, forming the acronym CAMELS.


                                                          I-9
As borrowers defaulted on their loans, FSB’s OREO increased from $200,000 in 2005 to over
$78 million (or over fourteen percent of total assets) in 2011. OREO assets are non-earning
assets that require additional oversight and expense to manage and dispose of through sale.
When a bank forecloses on an asset and takes possession of property, the property is valued at a
reduced fair value, less the cost to sell. This creates additional losses for banks during times of
depressed real-estate markets, as was the case for FSB. The following figure illustrates the
increasing trend in FSB’s OREO portfolio relative to its peer group during the years preceding
the bank’s failure.

Figure 4: FSB’s OREO vs. Peer Group, 2005-2011




Source: BDO analysis of UBPRs for FSB.




The FDIC’s Supervision of The First State Bank

The FDIC, in coordination with the GDBF, provided ongoing supervisory oversight of FSB
through onsite risk management examinations, visitations, and offsite monitoring activities.
Through its supervisory efforts, the FDIC identified key risks in FSB’s operations and brought
these risks to the attention of the institution’s Board and management. Such risks included the
bank’s significant concentrations in CRE and ADC loans and weak loan underwriting, credit
administration, and related monitoring practices. The FDIC and the GDBF also made numerous
recommendations for improvement and took supervisory actions in the form of a Memorandum
of Understanding (MOU), Consent Order (CO), and Supervisory PCA Directive.




                                                I-10
Supervisory History

Between 2005 and 2011, the FDIC and GDBF conducted six onsite examinations and two
visitations of FSB. Table 3 presents the supervisory history for FSB from 2005 through 2011.

Table 3: Supervisory History of FSB, 2005-2011
  Examination        Report Date       Regulatory        Supervisory         Violations            Supervisory
  or Visitation                         Agency             Ratings             and/or                Action
   Start Date                                                              Contraventions*
  July 11, 2005        August 1,          FDIC             111121/1               1                    None
                         2005          examination
   August 14,        September 14,        State            111122/1               None                 None
      2006               2006          examination
  November 13,       November 21,         FDIC             233222/3                 6             MOU effective
      2007               2008          examination                                                January 6, 2009
  April 30, 2009     March 1, 2010        Joint            454544/5                 2               CO effective
                                       examination                                                 May 14, 2010
   October 26,        November 2,         FDIC             555545/5                 1                CO still in
      2009               2009           visitation                                                     effect
  June 28, 2010      September 30,        Joint            555545/5                 4                CO still in
                         2010          examination                                                     effect
  February 14,       March 1, 2011        FDIC             555545/5               None               CO still in
     2011                               visitation                                                     effect
 August 8, 2011      November 1,          Joint            555555/5                 3              PCA Directive
                        2011           examination                                                    effective
                                                                                                   December 22,
                                                                                                        2011
Source: BDO analysis of FSB’s Reports of Examination and RMS Supervisory Documents.
* See Appendix 1 for a description of FSB’s apparent violations of laws and regulations and contraventions of policy.


Frequency of Onsite Examinations. Section 10(d) of the FDI Act states that the appropriate
Federal banking agency shall, not less than once during each 12-month period, conduct a full-
scope, onsite examination of each insured depository institution. According to the Act, the
annual examination interval may be increased to 18 months for small institutions that meet
certain conditions, such as having total assets of less than $500 million. FSB did not meet the
conditions to be considered a small institution and, therefore, was required to be examined on a
12-month examination cycle. Except as described below, the frequency of FSB’s examinations
were consistent with relevant provisions of the FDI Act.

For purposes of measuring compliance with the examination frequency requirements of the FDI
Act, Section 1.1 of the FDIC’s Risk Management Manual of Examination Policies defines how
the 12- and 18-month examination cycles should be measured. Using the criteria in the Manual,
we determined that the April 30, 2009 examination should have started no later than
January 12, 2009. The GDBF examiners indicated that GDBF delayed the 2009 Joint
Examination due to several factors, including staffing constraints, the bank’s adequate capital
rating at that time, and the state’s desire to allow FSB time to comply with the MOU that went
into effect on January 6, 2009. However, the majority of asset growth that contributed to FSB’s


                                                        I-11
failure occurred prior to 2009 and as a result, it appears unlikely that an earlier examination
would have materially affected the course of the bank’s financial decline or the cost to the DIF.

Enforcement Actions. Based on the results of the November 2007 examination, the FDIC
entered into a MOU with FSB’s Board on January 6, 2009 to address a number of risk
management issues. Under the terms of the MOU, the Board agreed to (among other things):

   •   Submit a written plan to the FDIC for the reduction and improvement of all borrowers
       with total borrowings, including unfunded loan commitments, which were adversely
       classified or listed for special mention in the November 2007 Report of Examination
       which aggregated to $500,000 or more.

   •   Submit revised loan policies and procedures to the FDIC that address the deficiencies
       identified during the examination.

   •   Submit a written Capital Plan to the FDIC that included a requirement for the bank to
       maintain a Tier 1 Leverage Capital ratio and Total Risk-Based Capital ratio equal to or
       greater than 8 percent and 10 percent, respectively.

   •   Maintain an adequate ALLL level in accordance with generally accepted accounting
       principles (GAAP).

   •   Refrain from paying any cash dividends without the prior written consent of its
       Supervisory Authorities.

   •   Submit a written comprehensive business/strategic plan covering at least an operating
       period of 3 years. The plan was to contain an assessment of the bank’s current financial
       condition and market area, and a description of the operating assumptions that form the
       basis for major projected income and expense components.

   •   Eliminate from the bank’s books, by charge-off or collection, all assets or portions of
       assets classified as “loss” during the examination that had not been previously collected
       in full or charged-off.

During the April 2009 joint examination, examiners determined that FSB’s management had
taken a number of actions to address the provisions of the MOU. However, actions taken in
several critical areas were not adequate considering the bank’s risk profile and large
concentrations of credit. These included such things as improving management, the loan review
program, loan underwriting and credit administration, budget projections, and compliance with
apparent violations. Based on the results of the April 2009 joint examination, the FDIC and


                                               I-12
GDBF entered into a CO with FSB’s Board on May 14, 2010. The CO remained in effect until
the bank was closed in January 2012. The CO required, among other things, that the institution:

   •   Increase the Board’s participation in the affairs of the bank.

   •   Analyze the bank’s credit concentrations and develop a plan to reduce such
       concentrations.

   •   Establish an independent loan review program that provides for a periodic review of the
       bank’s loan portfolio and the identification and categorization of problem credits.

   •   Review and maintain an adequate ALLL.

   •   Adopt and implement a policy, consistent with regulatory guidance, limiting the use of
       interest reserves.

   •   Submit to the FDIC and GDBF a written plan detailing appropriate strategies for
       managing ADC and CRE concentrations levels, including a contingency funding plan to
       reduce or mitigate concentrations given adverse market conditions.

   •   Raise and maintain Tier 1 Capital and Total Risk-Based Capital to equal or exceed
       8 percent of total assets and 10 percent of total risk-weighted assets, respectively, in
       addition to a fully funded ALLL.

   •   Implement a written plan to address liquidity, contingent funding, interest rate risk, and
       asset/liability management.

   •   Eliminate and/or correct all violations of laws and/or regulations or contraventions of
       statements and policy cited during the April 2009 examination.


The bank made some progress in addressing the requirements of the CO. However, due to the
rapid deterioration of the bank, compliance with key provisions was not accomplished, including
provisions pertaining to achieving and maintaining minimum capital requirements and reducing
adversely classified assets and concentrations.




                                                I-13
Supervisory Response to Key Risks

In the years preceding FSB’s failure, the FDIC and GDBF identified risks in the bank’s
operations and brought these risks to the attention of the institution’s Board and management
through examination reports and letters summarizing the results of the visitations,
correspondence, and recommendations. In addition, the FDIC issued both formal and informal
enforcement actions, as described earlier. A summary of the supervisory activities related to the
bank’s key risks follows.

July 11, 2005 FDIC Examination (CAMELS Rating 111121/1)

Examiners determined during the July 2005 examination that FSB’s overall condition remained
sound. At that time, management was considered sound, with the level and quality of oversight
cited as being strong. Examiners determined that the bank’s asset quality was strong, with
generally sound credit administration practices. However, examiners considered the bank’s CRE
concentration representing 811 percent of Tier 1 Capital, and ADC concentration representing
464 percent of Tier 1 Capital, high. In addition, examiners identified apparent violations of
Part 323 of the FDIC Rules and Regulations related to obtaining real estate appraisals.
Specifically, the bank had extended several loans to fund the purchase of residential lots and
construction of 1-4 family houses. The files did not contain an appraisal or evaluation of the
lots, which is an apparent violation of the regulation. Examiners made recommendations to bank
management to enhance problem loan documentation, financial statement analysis consistency,
and concentration monitoring.

August 14, 2006 State Examination (CAMELS Rating 111122/1)

Examiners determined during the August 2006 State examination that the overall condition of
the bank was strong, with asset quality, capital, earnings, and management considered strong.
The examiners continued to note the bank’s high concentration in ADC loans, with the funded
portion representing 433 percent of Tier 1 Capital and total commitments representing
574 percent of Tier 1 Capital. As identified in Figure 2, these concentration levels were far
above FSB’s peer group average. However, at the time of the August 2006 examination,
examiners considered the bank’s management of concentrations to be satisfactory. Examiners
encouraged management to continue to closely monitor the real estate market in the bank’s trade
area. Management was also encouraged to review the Asset/Liability Policy to ensure that all
parameters reflected the Board’s risk tolerances for the institution.

November 13, 2007 FDIC Examination (CAMELS Rating 233222/3)

Examiners determined during the November 2007 examination that FSB’s overall condition had
deteriorated and needed improvement and assigned the bank a composite “3” rating. The



                                              I-14
examiners identified weaknesses in loan underwriting and credit administration that contributed
to a significant increase in the volume of adversely classified items, which increased from a
modest $2.7 million at the previous examination to $53.6 million at the November 2007
examination. The majority of adversely classified items consisted of ADC loans. Examiners
noted that capital was satisfactory and that the bank was Well Capitalized, although the
significant increase in adversely classified items and the sizeable CRE concentration presented
additional risks.

During the examination, examiners noted that the bank continued to have large CRE and ADC
concentrations of 575 and 441 percent of examiner adjusted Tier 1 Capital, respectively. Such
concentrations were substantially higher than the bank’s peer group average, and examiners
noted that concentrations were in contravention of the Joint Guidance. Further, examiners
determined that the risk exposure attributed to ADC loans was not appropriately monitored and
controlled. Examiners recommended that management obtain and review reports that stratify the
CRE portfolio by geographic market, developer, subdivision, price range, and risk rating.

Moreover, examiners noted additional weaknesses pertaining to the bank’s monitoring of
adherence to established ADC limits. The Loan Policy established limits by category of ADC
loans in relation to total loans, such as a 10 percent limit for acquisition and development (A&D)
loans. The bank’s September 30, 2007 monitoring report indicated that A&D loans represented
36 percent of total loans, 250 percent in excess of the bank’s internally established limit.
Examiners noted the recent downturn in the residential real estate market heightened risk
associated with A&D loans. However, examiners did not find any Board discussion regarding
the fact that the bank had exceeded its internally established A&D loan limits. Examiners
recommended that management ensure that internal policy limits be appropriately monitored,
that documentation be maintained to support decisions to exceed those limits, or that
management develop a plan to achieve compliance with established limits.

Examiners also noted that the bank needed to improve its loan review system, loan underwriting,
credit administration, and loan policy. Examiners noted that approximately 60 percent of
adversely classified items in the examination report represented loans downgraded by examiners
that were not internally identified on the bank’s watch list. Among the other weaknesses,
examiners identified inappropriate and liberal use of interest reserves and a lack of global cash
flow analyses and updated financial information before loan renewals. In addition, the
capitalization and use of interest reserves was not in the loan policy. Further, examiners
identified numerous apparent violations of laws and regulations that are contained in Appendix 1
of this report.

During the January 7, 2008 exit meeting, FSB’s management disagreed with the tentative
composite rating and management rating of “3.” As a result of this disagreement, the examiners
reviewed their examination results and allowed management more time to receive updated
appraisals for certain assets that were adversely classified during the examination. After these


                                               I-15
reviews and updated appraisals were obtained, the examiners maintained the same ratings and
issued the report in November 2008. As discussed earlier in this report, the delay in issuing the
November 2007 examination and starting the next examination does not appear to have
materially affected the course of the bank’s financial decline or the cost to the DIF. Based on the
results of examination, the regulators executed an MOU to address the deficiencies identified by
the examiners. The MOU became effective on January 6, 2009, one year after the exit meeting.

April 30, 2009 Joint State/FDIC Examination (CAMELS Rating 454544/5)

Examiners determined that the major downturn in the residential real estate market had led to
serious deterioration in the bank’s financial condition. Examiners noted significant increases in
adversely classified assets, which threatened the viability of the bank. The primary cause of the
rapid decline in asset quality was the large ADC concentration that the Board permitted the bank
to maintain and the collapse of the real estate market during 2007. FSB’s ADC concentration
was 476 percent of Tier 1 Capital, almost four times that of the bank’s peer group average and
well in excess of the bank’s internal risk limits for concentrations. Management stated that the
market collapse had limited the bank’s options for reducing this concentration. Foreclosures and
sales appeared to be a primary method to achieve immediate reductions in real estate
concentrations. However, the bank’s OREO was already at an excessive level of 3.71 percent of
total assets, with almost $25 million being adversely classified at the examination.

Examiners attributed the decline in asset quality to a failure of management to diversify the loan
portfolio, effectively control lending risk and insufficient analysis in the loan underwriting
process. Additionally, examiners identified multiple apparent appraisal violations for loans that
were renewed without obtaining or performing an appropriate evaluation of the bank’s real estate
collateral despite an apparent change in the condition of the real estate market. These
deficiencies were corrected, although inspection information was not consistently maintained in
the loan files. Additionally, examiners determined that loan underwriting did not identify which
borrowers would be unable to perform in a stressed economic environment. The bank did not
consider that certain borrowers were overly reliant upon real estate for both net worth and
sources of income. Examiners found that global cash flow analyses were not routinely
performed, nor was the impact of larger borrowers’ contingent liabilities considered. In addition,
examiners found that the bank was focused on work-out plans that concentrated on the payment
of interest, rather than on principal, and extending a large volume of loans for the purpose of
servicing interest due on the borrowers’ debts at the bank. These practices served to mask
problem loans, which were subsequently adversely classified at the examination.

Examiner’s determined that the level of adversely classified assets was at a critically deficient
level, which contributed to a $14 million operating loss in 2008. Further, the ALLL was
underfunded by almost $6 million and the bank had improperly accrued interest on non-
performing loans through interest reserves, resulting in identified accrued interest reversals of


                                                I-16
$2.3 million. Examiners noted that poor asset quality and operating losses were likely to
continue to erode the bank’s capital position, which had historically been higher than other
community banks in the south Atlanta market. Notwithstanding this mitigating factor, the bank’s
Total Risk-Based Capital ratio of 10.02 percent as of March 30, 2009, was just above the Well
Capitalized threshold for PCA. The bank suffered continued declines in its capital throughout
2009, and by year-end the bank had fallen to Significantly Undercapitalized.

As described earlier in this report, the examiners performed a review of the institution’s
compliance with the January 2009 MOU during the April 2009 examination. Examiners found
that the bank was not in compliance with 1 of 13 requirements to, within 60 days of the MOU,
take steps necessary and consistent with sound banking practices to correct all violations of laws,
rules, and regulations, and contraventions of policy statements cited during the prior exam. One
material violation was noted due to weaknesses in the bank’s appraisal review and evaluation
process, which was corrected during the examination. Examiners also noted that the bank was in
partial compliance with 3 of the 13 requirements and compliant with the remaining
9 requirements. Examiners determined that the MOU had not been effective in restoring the
bank to an overall satisfactory financial condition and recommended that a formal program of
corrective action be implemented to correct the condition of the institution.

We spoke with examiners to determine why the April 2009 Report of Examination was not
issued until March 2010. Examiners informed us that the delay was due to several factors,
including but not limited to, resolving disagreements with management regarding the ratings
assigned to the bank and pursuing a CO with FSB between the start of the examination and the
issuance of the report.

October 26, 2009 FDIC Visitation (CAMELS Rating 555545/5)

While the examiners were resolving disputes with management about the rating downgrade from
a “3” to “5” in the April 2009 examination and were pursuing a CO, a visitation of the bank was
conducted on October 26, 2009 to, among other things, confirm the April 2009 examination
ratings and evaluate compliance with the MOU. The visitation confirmed the composite bank
rating of a “5” and noted further deterioration in the bank’s financial condition. The visitation
also identified three areas of non-compliance with the MOU related to maintaining capital and
the ALLL, and reducing volatile funding. The visitation was completed on November 2, 2009
and the final report of examination was issued on March 1, 2010. The CO became effective on
May 14, 2010.

June 28, 2010 Joint State/FDIC Examination (CAMELS Rating 555545/5)

Examiners noted that the overall condition of the bank continued to deteriorate. The asset
quality was critically deficient due to the high levels of adversely classified assets, primarily


                                                 I-17
ADC loans and OREO, which totaled $217 million, or 563 percent of Tier 1 Capital and the
ALLL. As of June 30, 2010, funded ADC loans totaled $161 million, or 755 percent of Tier 1
Capital. Examiners determined that the ADC loans lacked sufficient support from borrowers and
from the current value of the collateral. Additionally, appropriate Board oversight of the
excessive ADC concentration was lacking. Examiners determined that management invested
heavily in ADC lending without evaluating the feasibility of certain projects or formulating
sufficient risk reduction and/or exit strategies to protect the bank in the event of a downturn in
the real estate market.

Examiners identified weaknesses in the oversight of underwriting and credit administration.
Specifically, documentation deficiencies were noted in over 42 percent of the loans reviewed and
primarily focused on appraisals, financial statements, and tax returns. Examiners found that
management and the Board had not demonstrated the ability to correct problems and implement
appropriate risk management practices. In addition, the bank’s loan policy needed to be
modified to define the authority levels required for changing loan grades and to include
economic and certain loan type information in the ALLL calculation. The bank also had
numerous violations of laws and regulations and contraventions of interagency guidelines as
identified in Appendix 1 of this report.

Finally, FSB’s capital was critically deficient given the additional losses in the ADC portfolio.
Tier 1 Leverage and Total Risk-Based Capital ratios declined to 3.45 and 5.52 percent,
respectively. The bank was considered Significantly Undercapitalized for PCA purposes and
examiners questioned the viability of the institution without the addition of capital. Although the
bank was able to satisfy 14 or the 19 provisions of the CO, the bank was unable to satisfy 5 of
the provisions, 1 of which related to capital. Those five provisions were (1) write-off all
adversely classified loss assets, (2) not extend any additional credit to a borrower that has
charged-off or classified assets, (3) maintain an adequate ALLL, (4) maintain Tier 1 Capital of
not less than 8 percent and (5) eliminate all apparent violations of regulations and contravention
of policy.

February 14, 2011 FDIC Visitation (CAMELS Rating 555545/5)

A routine visitation was conducted at the bank on February 14, 2011 to assess, among other
things, compliance with the CO, the ALLL methodology, and capital. Examiners noted that as
of December 31, 2010, the overall condition of the bank was critically deficient. Asset quality
was critically deficient due to $207 million in adversely classified assets, and poor credit
administration practices. Management made progress in reducing classified assets and ADC
concentrations. In addition, the ALLL methodology appeared appropriate for the overall risk
profile of the institution. However, loans continued to deteriorate and the risk cushion formerly
afforded by capital had been nearly eliminated. Examiners noted that the bank had not



                                               I-18
maintained capital at required levels, eliminated apparent appraisal violations, prepared an
adequate Liquidity Plan, and obtained Board approval for the OREO reduction plan.

August 8, 2011 Joint Examination (CAMELS Rating 555555/5)

Examiners determined that the bank had experienced significant deterioration and was in
imminent danger of failing. Examiners found that the bank’s poor condition was characterized
by critically deficient asset quality. Adversely classified items increased since the last
examination to $232 million, or 1,078 percent of Tier 1 Capital and the ALLL. Examiners
determined that the primary cause of the bank’s asset quality deterioration was an excessive and
poorly controlled ADC concentration, exacerbated by the extended economic downturn. As of
June 30, 2011, ADC loans totaled $141 million, or 25 percent of total assets, while other CRE
loans totaled $104 million, or 18 percent of total assets. Moreover, the bank’s OREO was an
excessive 14 percent of total assets. Examiners noted that the Board and senior management had
improved the overall level of credit administration, but had been unable to reduce the volume of
nonperforming assets and restore asset quality to a satisfactory level. Examiners also noted that
the bank continued to have apparent violations for appraisal evaluations and legal lending limits,
and contraventions of regulations related to interest rate risk.

During the examination, examiners found that capital levels remained critically deficient due to
losses created by poor asset quality. The ALLL was found to be underfunded by at least
$8.9 million. The Tier 1 Capital level, adjusted for examination findings, had fallen to
0.63 which is considered Critically Undercapitalized for PCA purposes. Earnings performance
remained negative and operating losses were projected to continue, which would further erode
the bank’s capital position. Examiners noted that the bank needed an immediate and substantial
capital injection, without which failure was likely. Such an injection was also required for the
bank to comply with the outstanding CO. Examiners found that the bank was not in compliance
with numerous provisions of the CO, such as reducing adversely classified assets, not extending
additional credit to borrowers with charged-off or classified loans, eliminating apparent
violations, maintaining adequate capital, reducing the ADC concentration, and maintaining an
adequate ALLL. Management acknowledged the threat of insolvency and the FDIC Atlanta
Regional Office recommended that FSB continue to remain on the formal problem bank list.

Supervisory Lessons Learned

The perspectives gained from the failure of FSB are not unique. Like other institutions that
failed in recent years, FSB developed a significant exposure to ADC loans at a time when the
bank’s financial condition and lending markets were favorable. This exposure made the bank
vulnerable to a sustained downturn in the real estate market.




                                               I-19
At the time of the August 2006 GDBF examination, FSB had a nominal amount of adversely
classified assets. However, the bank also had a significant concentration in ADC loans that was
much higher than its peer group average. The FDIC’s current approach to supervision involves
greater emphasis on risk management practices for institutions with high-risk profiles, such as
FSB, and a stronger supervisory response—including accelerated examinations or visitations,
lower ratings, and/or supervisory actions—when risks are not being properly managed. At the
time of the August 2006 GDBF examination, however, given the institution’s financial
condition, examiners assigned FSB a composite “1” rating. A more critical assessment of the
risk exposure and closer scrutiny of risk management practices may have produced a different
outcome and supervisory response, and prompted earlier action on the part of FSB to limit its
vulnerability to a downturn in the real estate market. However, we cannot determine with
certainty the degree to which an alternative supervisory approach and response would have been
effective in limiting FSB’s financial deterioration or the loss to the DIF.

Examiners did become sharply critical of FSB’s risk management practices beginning with the
FDIC’s 2007 examination, resulting in the issuance of an MOU following the examination.
Regulators also issued enforcement actions in 2009 and 2010; however, the bank’s lending
markets were rapidly deteriorating, making remedial efforts difficult.

The FDIC has taken a number of actions to enhance its supervision program based on the lessons
learned from failures during the financial crisis. Such actions include instituting a training
initiative for examiners that focuses on placing greater emphasis on risk management practices
for institutions with high risk profiles and issuing additional supervisory guidance on CRE and
ADC concentrations.

Implementation of PCA

Section 38 of the FDI Act, Prompt Corrective Action, establishes a framework of mandatory and
discretionary supervisory actions pertaining to institutions at various capital levels. The section
requires regulators to take progressively more severe actions, known as “prompt corrective
actions,” as an institution’s capital level deteriorates. The purpose of section 38 is to resolve the
problems of insured depository institutions at the least possible cost to the DIF. Part 325 of the
FDIC Rules and Regulations, Capital Maintenance, defines the capital measures used in
determining the supervisory actions that will be taken pursuant to section 38 for FDIC-
supervised institutions. Part 325 also establishes procedures for the submission and review of
capital restoration plans (CRP), and for the issuance of directives and orders pursuant to
section 38. The FDIC is required to closely monitor the institution’s compliance with its CRP,
mandatory restrictions defined under section 38(e), and discretionary safeguards imposed by the
FDIC (if any) to determine if the purposes of PCA are being achieved.




                                                I-20
The FDIC implemented supervisory actions that were consistent with relevant provisions of
PCA. Among other things, the FDIC notified the bank when its capital levels fell into PCA
capital categories below Adequately Capitalized, reviewed and monitored the institution’s Call
Report information, and conducted discussions with FSB’s management regarding its efforts to
raise needed capital.

Table 4 illustrates FSB’s capital levels relative to the PCA thresholds for Well Capitalized
institutions as reported in the bank’s Call Reports. A chronological description of the changes in
FSB’s capital categories and the FDIC’s implementation of PCA follow the table.

Table 4: FSB’s Capital Levels, 2005-2011
                         Tier 1 Leverage           Tier 1 Risk-         Total Risk-Based            PCA Capital
          Date
                              Capital             Based Capital              Capital                 Category
     Well Capitalized
                             5% or more              6% or more             10% or more
      Thresholds
                        Bank         Peer        Bank        Peer        Bank         Peer
    December 31, 2005   9.59%       8.88%       11.37%      11.78%      12.28%       12.95%        Well Capitalized
    December 31, 2006   9.70%       9.02%       11.72%      11.75%      12.59%       12.89%        Well Capitalized
    December 31, 2007   9.85%       9.06%       12.08%      11.62%      13.32%       12.73%        Well Capitalized
    December 31, 2008   8.39%       8.75%       10.27%      11.40%      11.55%       12.60%        Well Capitalized
                                                                                                 Significantly Under-
    December 31, 2009   3.27%       8.66%        4.16%      11.90%       5.40%       13.17%
                                                                                                     Capitalized
                                                                                                 Significantly Under-
    December 31, 2010   2.65%       9.02%        3.09%      13.00%       4.35%       14.27%
                                                                                                     Capitalized
                                                                                                  Critically Under-
    December 31, 2011   0.60%       9.42%        0.75%      13.95%       1.50%       15.20%
                                                                                                     Capitalized
Source: BDO analysis of UBPRs for FSB.


FSB was considered Well Capitalized for PCA purposes until the institution filed its
June 30, 2009 Call Report reflecting an Adequately Capitalized position. Although not required
by statute or policy, the FDIC notified FSB’s Board of its Adequately Capitalized position in a
letter dated August 7, 2009. 7 Pursuant to Section 29 of the FDI Act and Section 337.6 of the
FDIC Rules and Regulations, an Adequately Capitalized institution may not accept, renew, or
roll over brokered deposits unless it has applied for and been granted a waiver by the FDIC.
FSB did not request or receive FDIC’s approval to accept, renew, or roll over brokered deposits.

In a letter dated February 10, 2010, the FDIC notified FSB’s Board that, based on its
December 30, 2009 Call Report, the bank had fallen to Significantly Undercapitalized. The
letter referenced a number of restrictions imposed on Significantly Undercapitalized institutions
and advised the Board to develop policies and procedures to ensure compliance. The letter also
requested that the bank submit a CRP within 45 days of receipt of the letter. FSB submitted a

7
 FDIC policy requires that institutions be notified in writing when they fall to Undercapitalized, Significantly
Undercapitalized, or Critically Undercapitalized. The policy does not require notification to institutions that fall to
an Adequately Capitalized position.


                                                         I-21
CRP dated March 28, 2010. On May 27, 2010, the FDIC notified FSB that it would receive a
letter by June 2, 2010 stating that the CRP was not acceptable. However, FSB did not receive
such a letter until August 12, 2010, beyond the 60 day timeframe allowed for notifying
institutions about the acceptability of their CRPs. Section 325.104(c) of the FDIC Rules and
Regulation states that the FDIC shall provide written notice to a bank as to whether its CRP, as
required under PCA, has been approved within 60 days of receiving the plan. However, FSB
became subject to a CO with a capital maintenance provision within 60 days of submitting the
CRP. In addition, the FDIC had regular communication with FSB’s management regarding the
bank’s ongoing efforts to improve its capital position. As a result, in our view, the lack of a
timely written notice was inconsequential to the supervision or failure of the bank.

The August 12, 2010 letter required that FSB submit a revised CRP within 45 days, or by
September 27, 2010. On October 5, 2010, FSB provided the FDIC with a revised CRP. In a
letter dated November 26, 2010, the FDIC notified the bank that the revised CRP was essentially
the same as the prior CRP and remained unacceptable. FSB never submitted an acceptable CRP.
The bank attempted a private placement offering during January 2011. However, there was not
sufficient interest to raise the required capital to bring FSB’s capital levels back to a Well
Capitalized status. In addition, the bank was required to provide the FDIC and GDBF with
quarterly status reports on its efforts to improve capital pursuant to the CO. Further, examiners
assessed the bank’s efforts to improve its capital position through examinations, visitations, and
other communications. Due to the bank’s inability to raise additional capital, the bank’s capital
levels continued to fall throughout 2011 due to the recognition of additional operating losses.

In a letter dated November 3, 2011, the FDIC notified FSB’s Board that, based on its
September 30, 2011 Call Report, the bank had fallen to Critically Undercapitalized. The letter
included reminders regarding the requirements imposed on Critically Undercapitalized
institutions. On December 22, 2011, the FDIC issued a Supervisory PCA Directive in response
to the bank’s ratio of tangible equity to total assets falling below two percent. Among other
things, the Directive required the bank to submit an acceptable CRP and take appropriate action
to increase its capital to a level sufficient to restore the bank to an Adequately Capitalized
category.

FSB explored a number of strategic alternatives for raising capital, such as a private placement
offering, conversion of existing bank liabilities to capital (e.g., deferred compensation plans),
sale of bank-owned fixed assets (non OREO) at a price in excess of book value, and bulk sales of
OREO and nonperforming loans in conjunction with capital injections. However, these efforts
were ultimately not successful and the institution was closed on January 20, 2012.




                                               I-22
                                                                                                Appendix 1

   FSB’s Risk Management Weaknesses and Apparent Violations and
       Contraventions by Examination and Visitation, 2005-2011
       Reports of Examination Dates                2005   2006     2007   2009   2009v   2010   2011v   2011
 Examination/Visitation Composite
                                                    1          1    3      5       5      5       5      5
 Ratings
 Excessive concentrations in CRE and ADC
                                                                                                  
 loans
 Loan Underwriting
 Inappropriate use of interest reserves                                   
 Improper disbursement of construction loan
                                                                    
 funds
 Inadequate appraisals and evaluations                                                               
 Credit Administration
 Loan policy did not establish risk limits for
                                                                                                       
 loan concentrations as a percentage of capital.
 Lack of risk management practices to monitor
                                                                                                      
 and control ADC and CRE concentrations
 Inadequate or lack of analysis of global cash
 flows, financial statements, credit memoranda,
                                                                                        
 contingent liabilities, project feasibility and
 debt service capacity
 Lack of adherence to the loan policy                                     
 Inadequate loan review and problem loan
                                                                                       
 identification/grading/ALLL methodology
 Apparent Violations and Contraventions
 Joint Guidance on Concentrations in
 Commercial Real Estate Lending, Sound Risk                                             
 Management Practices
 Part 323/Statement of Policy – Appraisals                                                           
 Part 365/ Statement of Policy – LTV limits                                              
 Part 364/ Interagency Guidance Establishing
                                                                                          
 Standards for Safety and Soundness
 Statement of Policy on Interagency Appraisal
                                                                    
 and Evaluation Guidelines
 Interagency Statement of Policy on ALLL                            
 Section 7-1-285(b) of the Financial Institution
 Code of Georgia regarding legal lending                                                                
 limits
 Joint Agency Policy Statement for Interest
                                                                                                        
 Rate Risk
V – Denotes Report of Visitation
Source: Report of Examinations for FSB




                                                        I-23
                                                                                    Appendix 2

                  Objectives, Scope, and Methodology
Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by the
Financial Reform Act, which provides, in general, that if the DIF incurs a material loss with
respect to an insured depository institution, the Inspector General of the appropriate federal
banking agency shall prepare a report to that agency, reviewing the agency’s supervision of the
institution. The Financial Reform Act amends section 38(k) by increasing the MLR threshold
from $25 million to $150 million for losses that occur for the period January 1, 2012 through
December 31, 2012. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Consistent with the Financial Reform and FDI Act provisions described above, the objectives of
this MLR were to (1) determine the causes of FSB’s failure and the resulting material loss to the
DIF and (2) evaluate the FDIC’s supervision of the institution, including the FDIC’s
implementation of the PCA provisions of section 38 of the FDI Act.

Our report contains no recommendations. Instead, as major causes, trends, and common
characteristics of institution failures are identified in MLRs, the FDIC OIG communicates those
to FDIC management for its consideration. As resources allow, the FDIC OIG conducts more
comprehensive reviews of specific aspects of the FDIC’s supervision program and makes
recommendations as warranted.

We conducted this performance audit from April 2012 to July 2012 in accordance with Generally
Accepted Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

Scope and Methodology

The scope of the audit focused primarily on FSB’s operations from July 2005 until its failure in
January 2012. Our review also entailed an evaluation of the regulatory supervision of the
institution over the same period. In addition, we analyzed information pertaining to certain other
matters that occurred prior to 2005 that we considered relevant to the audit. To achieve the
objectives, we performed the following audit procedures:

   •   Analyzed examination and visitation reports prepared by the FDIC and GDBF from 2005
       to 2011.




                                               I-24
                                                                                     Appendix 2

                  Objectives, Scope, and Methodology
   •   Reviewed key documentation, including:

            Selected examination work papers prepared by the FDIC and GDBF from 2005 to
             2011, as provided to BDO by RMS and the GDBF.
            Institution data in Call Reports, UBPRs, and other reports.
            FDIC and GDBF correspondence, as provided to BDO by RMS.
            Other relevant documents prepared by the FDIC relating to the institution.
            Information in the FDIC’s Virtual Supervisory Information On the Net system.
            Pertinent FDIC regulations, policies, procedures, and guidance.

   •   Interviewed RMS examination staff in the Washington, DC office and in the Atlanta,
       Georgia Regional and Field Offices.

   •   Interviewed State examination staff to obtain their perspectives on the failure and to
       discuss their role in the supervision of the institution.

BDO relied primarily upon material provided by the FDIC OIG and RMS, including information
and other data collected during interviews. BDO did not perform specific audit procedures to
ensure the information and data were complete and accurate. BDO is, however, aware that
Circular 12000.1, Cooperation with the Office of Inspector General, dated September 28, 2007,
requires that all FDIC employees, contractors, and subcontractors cooperate with the OIG in
order for the OIG to carry out its statutory mandate. To that end, all employees, contractors, and
subcontractors must:

       (1) Provide authorized representatives of the OIG immediate and unrestricted access
       to all Corporation, receivership, contractor, and subcontractor personnel, facilities,
       equipment, hard copy and electronic records, files, information systems, and other
       sources of information when requested during the course of their official duties.

       (2) Provide authorized representatives of the OIG immediate and unrestricted access to
       any records or material available to any part of the FDIC.

In addition, BDO did not evaluate RMS’s compliance with offsite monitoring policies and
procedures for FSB.

Interviews were conducted to gain a better understanding of decisions made regarding the
supervisory approach to the institution and to clarify information and conclusions contained in
the examination reports and other relevant supervisory correspondence between the FDIC,
GDBF, and the bank. BDO relied on the information provided in the interviews without
conducting additional specific audit procedures to test such information.




                                               I-25
                                                                                    Appendix 2

                 Objectives, Scope, and Methodology
Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess RMS’s overall internal control or
management control structure. We relied on information in RMS systems, reports, and
interviews of examiners to understand FSB’s management controls pertaining to the causes of
failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems, but determined that information system controls
were not significant to the audit objectives and, therefore, we did not evaluate the effectiveness
of information system controls. We relied on our analysis of information from various sources,
including examination reports, correspondence files, and testimonial evidence to corroborate data
obtained from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs Executive
Branch agencies to develop a customer-focused strategic plan, align agency programs and
activities with concrete missions and goals, and prepare and report on annual performance plans.
For this MLR, we did not assess the strengths and weaknesses of RMS’ annual performance plan
in meeting the requirements of the Results Act because such an assessment was not part of the
audit objectives. RMS compliance with the Results Act is reviewed in OIG’s program audits of
RMS’ operations.

Regarding compliance with laws and regulations, we performed tests to determine whether the
FDIC had complied with the provisions of PCA and limited tests to determine compliance with
certain aspects of the FDI Act and the FDIC’s Rules and Regulations. The results of our tests are
discussed, where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.

Related Coverage of Financial Institution Failures

The FDIC provided us with a memorandum issued by the OIG on May 1, 2009. The
memorandum outlined major causes, trends, and common characteristics of FDIC-supervised
financial institution failures that had resulted in a material loss to the DIF. The memorandum
also indicated that the OIG planned to provide more comprehensive coverage of those issues and
make related recommendations, when appropriate. Since May 1, 2009, the OIG has issued
additional MLR reports related to failures of FDIC-supervised institutions, and these reports can
be found at www.fdicig.gov. As discussed earlier in this report, the OIG issued an audit report
entitled, Follow-up Audit of FDIC Supervision Program Enhancements (Report No. MLR-11-
010), dated December 2010). The objectives of the audit were to (1) determine the actions that



                                              I-26
                                                                                     Appendix 2

                  Objectives, Scope, and Methodology
the FDIC has taken to enhance its supervision program since May 2009, including those
specifically in responses to the May 2009 memorandum, and (2) identify trends and issues that
have emerged from subsequent MLRs.

Further, with respect to more in-depth coverage of specific issues, the OIGs of the FDIC, the
Department of the Treasury, and the Board of Governors of the Federal Reserve System issued
an evaluation report in September 2011, entitled Evaluation of Prompt Regulatory Action
Implementation (Report No. EVAL-11-006), which assessed the role and Federal regulators’ use
of the Prompt Regulatory Action provisions of the FDI Act (section 38, PCA, and section 39,
Standards for Safety and Soundness) in the banking crisis.

Additionally, the FDIC OIG has informed us that it began an evaluation in July 2011 to study the
characteristics and related supervisory approaches that may have prevented FDIC-supervised
institutions with significant ADC loan concentrations from being designated as problem banks or
failing during the recent financial crisis. Most recently, in January 2012, the President signed
Public Law 112-88 (formerly known as H.R. 2056, as amended), which requires the Inspector
General of the FDIC to conduct a comprehensive study on the impact of the failure of insured
depository institutions. In connection with this study, the FDIC OIG has initiated work in the
following areas of bank supervision:

   •   evaluation and use of appraisals,

   •   implementation of the FDIC’s policy statement on CRE loan workouts,

   •   risk management enforcement actions, and

   •   examiner assessment of capital.

The Inspector General is required to submit a report on the results of the study and any related
recommendations to Congress by January 3, 2013.




                                               I-27
                                                                                          Appendix 3

                                 Glossary of Terms
             Term                                             Definition
Acquisition, Development, and    ADC loans are a component of CRE that provide funding for
Construction (ADC) Loans         acquiring and developing land for future construction, and that
                                 provide interim financing for residential or commercial structures.

Adversely Classified Assets      Assets subject to criticism and/or comment in an examination report.
                                 Adversely classified assets are allocated on the basis of risk (lowest
                                 to highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for Loan and Lease     The ALLL is an estimate of uncollectible amounts that is used to
Losses (ALLL)                    reduce the book value of loans and leases to the amount that is
                                 expected to be collected. It is established in recognition that some
                                 loans in the institution’s overall loan and lease portfolio will not be
                                 repaid. Boards of directors are responsible for ensuring that their
                                 institutions have controls in place to consistently determine the
                                 allowance in accordance with the institutions’ stated policies and
                                 procedures, generally accepted accounting principles, and
                                 supervisory guidance.

Call Report                      Reports of Condition and Income, often referred to as Call Reports,
                                 include basic financial data for insured commercial banks in the
                                 form of a balance sheet, an income statement, and supporting
                                 schedules. According to the Federal Financial Institutions
                                 Examination Council’s (FFIEC) instructions for preparing Call
                                 Reports, national banks, state member banks, and insured
                                 nonmember banks are required to submit a Call Report to the
                                 FFIEC’s Central Data Repository (an Internet-based system used for
                                 data collection) as of the close of business on the last day of each
                                 calendar quarter.

Capital Restoration Plan (CRP)   Section 325.104(a)(1) of the FDIC Rules and Regulations requires a
                                 bank to file a written capital restoration plan with the appropriate
                                 FDIC regional director within 45 days of the date that the bank
                                 receives notice or is deemed to have notice that the bank is
                                 Undercapitalized, Significantly Undercapitalized, or Critically
                                 Undercapitalized, unless the FDIC notifies the bank in writing that
                                 the plan is to be filed within a different period.

Commercial Real Estate (CRE)     CRE loans are land development and construction loans (including
Loans                            1- to-4 family residential and commercial construction loans) and
                                 other land loans. CRE loans also include loans secured by
                                 multifamily property and nonfarm nonresidential property, where the
                                 primary source of repayment is derived from rental income
                                 associated with the property or the proceeds of the sale, refinancing,
                                 or permanent financing of the property.




                                               I-28
                                                                                     Appendix 3

                             Glossary of Terms
            Term                                             Definition
Concentration                A concentration is a significantly large volume of economically
                             related assets that an institution has advanced or committed to a
                             certain industry, person, entity, or affiliated group. These assets
                             may, in the aggregate, present a substantial risk to the safety and
                             soundness of the institution.

Consent Order (CO)           A formal enforcement action issued by financial institution
                             regulators to a bank or affiliated party to stop an unsafe or unsound
                             practice or violation. A CO may be terminated by the regulators
                             when they have determined that the bank’s condition has
                             significantly improved and the action is no longer needed or the
                             bank has materially complied with its terms.

Contingency Funding (or      A written plan that defines strategies for addressing liquidity
Liquidity) Plan              shortfalls in emergency situations. Such plans delineate policies to
                             manage a range of stress environments, establish clear lines of
                             responsibility, and articulate clear implementation and escalation
                             procedures. Contingency funding plans should be regularly tested
                             and updated to ensure that they are operationally sound. RMS uses
                             the terms contingency funding plan and contingency liquidity plan
                             interchangeably.

FDIC’s Supervision Program   The FDIC’s supervision program promotes the safety and soundness
                             of FDIC-supervised institutions, protects consumers’ rights, and
                             promotes community investment initiatives by FDIC-supervised
                             institutions. The FDIC’s RMS (1) performs examinations of FDIC-
                             supervised institutions to assess their overall financial condition,
                             management policies and practices (including internal control
                             systems), and compliance with applicable laws and regulations and
                             (2) issues related guidance to institutions and examiners.

Global Cash Flow Analysis    A global cash flow analysis is a comprehensive evaluation of
                             borrower capacity to perform on a loan. During underwriting,
                             proper global cash flow must thoroughly analyze projected cash flow
                             and guarantor support. Beyond the individual loan, global cash flow
                             must consider all relevant factors including: guarantor’s related debt
                             at other financial institutions, current and complete operating
                             statements of all related entities, and future economic conditions. In
                             addition, global cash flow analysis should be routinely conducted as
                             part of credit administration. The extent and frequency of global
                             cash flow analysis should be commensurate to the amount of risk
                             associated with the particular loan.




                                           I-29
                                                                                   Appendix 3

                           Glossary of Terms
             Term                                         Definition
Interest Reserve Account   An interest reserve account allows a lender to periodically advance
                           loan funds to pay interest charges on the outstanding balance of the
                           loan. The interest is capitalized and added to the loan balance.
                           Frequently, ADC loan budgets will include an interest reserve to
                           carry the project from origination to completion and may cover the
                           project’s anticipated sell out or lease-up period.

Loan-to-Value (LTV)        A ratio for a single loan and property calculated by dividing the total
                           loan amount at origination by the market value of the property
                           securing the credit plus any readily marketable collateral or other
                           acceptable collateral.

Material Loss              As defined by section 38(k)(2)(B) of the FDI Act, and as amended
                           by the Financial Reform Act, for the period beginning
                           January 1, 2012 and ending December 31, 2012, a material loss is
                           defined as any estimated loss to the DIF in excess of $150 million.

Memorandum of              An MOU is an informal agreement between the institution and the
Understanding (MOU)        FDIC, signed by both parties. The state authority may also be a
                           party to the agreement. MOUs are designed to address and correct
                           identified weaknesses in an institution’s condition.

Other Real Estate Owned    Property taken over by a bank through loan foreclosures.
(OREO)
Peer Group                 Institutions are assigned to 1 of 15 peer groups based on asset size,
                           number of branches, and whether the institution is located in a
                           metropolitan or non-metropolitan area.

Prompt Corrective Action   The purpose of PCA is to resolve the problems of insured depository
(PCA)                      institutions at the least possible long-term cost to the DIF. Part 325,
                           subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                           Regulations, section 325.101, et. seq., implements section 38,
                           Prompt Corrective Action, of the FDI Act, 12 U.S.C., section
                           1831(o), by establishing a framework for taking prompt supervisory
                           actions against insured nonmember banks that are less than
                           Adequately Capitalized. The following terms are used to describe
                           capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                           (3) Undercapitalized, (4) Significantly Undercapitalized, and (5)
                           Critically Undercapitalized. A PCA Directive is a formal
                           enforcement action seeking corrective action or compliance with the
                           PCA statute with respect to an institution that falls within any of the
                           three undercapitalized categories.




                                         I-30
                                                                                    Appendix 3

                           Glossary of Terms
            Term                                          Definition
Risked-Based Capital       A “supplemental” capital standard under Part 325 of the FDIC Rules
                           and Regulations. Under the risked-based framework, a bank’s
                           qualifying total capital base consists of two types of capital
                           elements, “core capital” (Tier 1) and “supplementary capital” (Tier
                           2).

Special Mention Assets     A Special Mention Asset has potential weaknesses that deserve
                           management’s close attention. If left uncorrected, these potential
                           weaknesses may result in deterioration of the repayment prospects
                           for the asset or the institutions credit position at some future date.
                           Special Mention assets are not adversely classified and do not
                           expose an institution to sufficient risk to warrant adverse
                           classification.

Tier 1 (Core) Capital      In general, this term is defined in Part 325 of the FDIC Rules and
                           Regulations, 12 Code of Federal Regulations (C.F.R.), section
                           325.2(v), as:

                           The sum of:
                            • Common stockholder’s equity (common stock and related
                              surplus, undivided profits, disclosed capital reserves, foreign
                              currency translation adjustments, less net unrealized losses on
                              available-for- sale securities with readily determinable market
                              values);
                            • Non-cumulative perpetual preferred stock; and
                            • Minority interest in consolidated subsidiaries;
                           Minus:
                            • Certain intangible assets;
                            • Identified losses;
                            • Investments in securities subsidiaries subject to section 337.4;
                              and
                            • Deferred tax assets in excess of the limit set forth in section
                              325.5(g).

Uniform Bank Performance   The UBPR is an individual analysis of financial institution financial
Report (UBPR)              data and ratios that includes extensive comparisons to peer group
                           performance. The report is produced by the FFIEC for the use of
                           banking supervisors, bankers, and the general public and is produced
                           quarterly from data reported in Reports of Condition and Income
                           submitted by banks.




                                         I-31
                                                                                       Appendix 3

                                 Glossary of Terms
            Term                                                Definition
Uniform Financial Institutions   Financial institution regulators and examiners use the UFIRS to
Rating System (UFIRS)            evaluate a bank’s performance in six components represented by the
                                 CAMELS acronym: Capital adequacy, Asset quality, Management
                                 practices, Earnings performance, Liquidity position, and Sensitivity
                                 to market risk. Each component, and an overall composite score, is
                                 assigned a rating of 1 through 5, with 1 having the least regulatory
                                 concern and 5 having the greatest concern.




                                              I-32
                                                                                   Appendix 4

                                     Acronyms
Acronym   Explanation
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
BDO       BDO USA, LLP
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market Risk
CO        Consent Order
CRE       Commercial Real Estate
CRP       Capital Restoration Plan
DIF       Deposit Insurance Fund
FDI       Federal Deposit Insurance
FDIC      Federal Deposit Insurance Corporation
FFIEC     Federal Financial Institutions Examination Council
FIL       Financial Institution Letter
FSB       The First State Bank, Stockbridge, Georgia
GAAP      Generally Accepted Accounting Principles
GAGAS     Generally Accepted Government Auditing Standards
GDBF      Georgia Department of Banking and Finance
LTV       Loan-to-Value
MLR       Material Loss Review
MOU       Memorandum of Understanding
OIG       Office of Inspector General
OREO      Other Real Estate Owned
PCA       Prompt Corrective Action
RMS       Division of Risk Management Supervision
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institutions Rating System




                                            I-33
                Part II

Corporation Comments and OIG Evaluation
Corporation Comments and OIG Evaluation
Subsequent to the issuance of BDO’s draft report, RMS officials provided additional
information for BDO’s consideration, and BDO revised its report to reflect this
information, as appropriate. On September 10, 2012, the RMS Director provided a
written response to a draft of this report. That response is provided in its entirety on page
II-2 of this report.

In the response, the Director, RMS, reiterated the causes of FSB’s failure and the
supervisory activities described in the report. Further, the response stated that RMS
recognized the threat that institutions with high-risk profiles, such as FSB, pose to the
DIF and issued to FDIC-supervised institutions a 2008 FIL, entitled Managing
Commercial Real Estate Concentrations in a Challenging Environment. The FIL re-
emphasized the importance of robust credit risk management practices for institutions
with concentrated CRE exposures and set forth broad supervisory expectations.




                                            II-1
                      CORPORATION COMMENTS
    _____________________________________________________________




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                                 Division of Risk Management Supervision




                                                                                  September 10, 2012

 TO:                 Stephen M. Beard
                     Deputy Inspector General for Audits and Evaluations

 FROM:               Sandra L. Thompson /Signed/
                     Director


 SUBJECT:            FDIC Response to the Draft Audit Report Entitled, Material Loss Review of
                     The First State Bank, Stockbridge, Georgia (Assignment No. 20 12-050)

 Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-
 Frank Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance
 Corporation's (FDIC) Office of Inspector General (OIG) conducted a Material Loss Review of
 The First State Bank, (FSB) which failed on January 20, 2012. This memorandum is the response
 of the Division of Risk Management Supervision (RMS) to the OIG's Draft Report received on
 August 9, 2012.

 FSB failed due to the Board's and management's ineffective oversight of the risk associated with
 the high concentration of commercial real estate (CRE) and acquisition, development and
 construction (ADC) loans. The Board and management did not establish appropriate loan
 concentration limits resulting in significant exposure in the CRE/ ADC portfolio. Lax lending
 practices such as weak ADC loan underwriting, administration, and monitoring also contributed
 to the decline in asset quality resulting in loan losses. The increase of the provision for loan
 losses depleted earnings, eroded capital and strained liquidity. Unable to raise sufficient capital
 to sustain safe and sound operations, FSB closed.

 From 2005 to 2011, the FDIC and the Georgia Department of Banking and Finance (GDBF)
 conducted six onsite risk management examinations, onsite visitations, and offsite monitoring.
 Examiners identified key risks in FSB's operations, brought these to the attention of the Board
 and management, and made recommendations. The 2007 FDIC examination noted weaknesses in
 loan underwriting and administration, and a significant increase in adversely classified loans.
 Examiners downgraded FSB and executed a Memorandum of Understanding to address
 identified deficiencies. At the joint 2009 examination examiners found asset quality had declined
 significantly. In addition, earnings were critically deficient. FDIC and GDBF proposed the
 issuance of a Consent Order to address unsafe and unsound banking practices that became
 effective on May 14, 2010.

 RMS has recognized the threat that institutions with high risk profiles, such as FSB, pose to the
 Deposit Insurance Fund and issued to FDIC-supervised institutions a 2008 Financial Institution
 Letter (FIL) entitled, Managing Commercial Real Estate Concentrations in a Challenging
 Environment. This FIL re-emphasizes the importance of robust credit risk management practices
 for institutions with concentrated CRE exposures and set forth broad supervisory expectations.

 Thank you for the opportunity to review and comment on the Report.



                                                      II-2
